Report No. DODIG-2013-094                     June 24, 2013




               Special Plans and Operations



        Assessment of U.S. and Coalition Efforts to
       Develop Leaders in the Afghan National Army
      Inspector General
                 United States Department of Defense

      Vision
         One professional team strengthening the integrity, efficiency,
                   and effectiveness of the Department of Defense
                               programs and operations.

       Mission
         Promote integrity, accountability, and improvement of Department
             of Defense personnel, programs and operations to support the
                  Department's mission and serve the public interest.




The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in
improvements to the Department. DoD IG provides guidance and recommendations to the Department of
Defense and the Congress.
THIS PAGE INTENTIONALLY LEFT BLANK
               Results in Brief: Assessment of U.S. and
               Coalition Efforts to Develop Leaders in the
               Afghan National Army
What We Did
Our purpose was to assess the sufficiency and the effectiveness of the Coalition’s programs for
developing Afghan National Army (ANA) officers and non-commissioned officers. We conducted
interviews with selected leader development subject matter experts in the U.S. In Afghanistan, we
conducted extensive interviews with U.S. and Coalition advisors, as well as their Afghan principals, at
the Ministry of Defense, the General Staff, and ANA training schools and operational units.

What We Found
We found that the Coalition’s programs for the ANA leader development were generally effective and
on track for transition to the Afghans. The establishment of a non-commissioned officer corps, and the
roles and responsibilities accompanying this enlisted leadership position, was not completely embraced
by senior ANA and General Staff personnel. The lack of a true merit-based personnel promotion and
assignment system negatively impacted the further development of a new generation of ANA leaders.

We found that among Coalition advisors to the ANA, at both training schools and operational units,
there was a wide variation in the selection for assignment and specific advisor training preparation.
Coalition Command data assessment practices and categories did not appear to have been updated to
reflect the change in mission emphasis from building the ANA to improving its quality.

Of special note was the ANA literacy program. In a country with a very low national literacy rate, this
educational program serves not just as an immediate benefit to the ANA, but also eventually the larger
nation of Afghanistan by, as one senior officer said, “…allows Afghans to be more discerning…”.

What We Recommend
•   Commander, North Atlantic Treaty Organization Training Mission-Afghanistan:
    o Coordinate with the General Staff to validate roles, responsibilities, and authorities for non-
       commissioned officers and ensure the publishing of appropriate policy and guidance.
    o Assist the ANA in ensuring both officer and non-commissioned officer training is synchronized
       regarding the mission of the non-commissioned officer.
    o In conjunction with the ANA, establish roles and responsibilities, and enforce appropriate
       personnel policies and practices, specifically regarding personnel records, promotions,
       assignments, pay, and retirement.
    o Encourage the MoD and ANA to plan to sustain, and even expand, the literacy program.
    o Commander, NATO Training Mission–Afghanistan, in coordination with Commander,
       International Security Assistance Force Joint Command, update the data collection and
       information sharing practices to better reflect the current mission
•   Commander, NATO Training Mission–Afghanistan, develop standardized selection and training
    requirements for all advisors.


                                                    i
Comments
All required commands responded. NATO Training Mission-Afghanistan’s comments were all
responsive. We require additional comment from International Security Assistance Force Joint
Command on three recommendations.


Recommendations Table

   Client                              Recommendations               No Additional Comments
                                       Requiring Additional          Required at This Time
                                       Comment
   Commander, North Atlantic                                         1.a., 1.b., 1.c.; 2.a., 2.b., 2.c,
   Treaty Organization Training                                      2.d, 2.e; 3.a., 3.b.; 4.a., 4.b.;
   Mission–Afghanistan                                               5.a., 5.b.; 6.a., 6.b., 6.c; 7.
   Commander, International            6.a., 6.b., 6.c.
   Security Assistance Force Joint
   Command

   Please provide comments by July 24, 2013.




                                                    ii
Table of Contents
Results in Brief ............................................................................................................................... i
           Recommendations Table ..................................................................................................... ii
Introduction ................................................................................................................................... 1
           Background ......................................................................................................................... 1
           Objective ............................................................................................................................. 2
           The ANA Leader Development Training Enterprise .......................................................... 2
Observations and Recommendations .......................................................................................... 7
           Observation 1.          The Role of Non-Commissioned Officers in the ANA. ............................ 7
           Observation 2.          Afghan National Army Personnel Management ..................................... 11
           Observation 3.          Budgeting for Afghan National Army Schools ....................................... 15
           Observation 4.          Afghan National Army School Course Quality ...................................... 21
           Observation 5.          Afghan National Army Literacy Training ............................................... 25
           Observation 6.          Gauging Leader Development Impact .................................................... 29
           Observation 7.          Training Standards for NATO Training Mission-Afghanistan
                                   Advisors .................................................................................................. 33
Appendix A. Scope, Methodology, and Acronyms .................................................................. 34
Appendix B. Summary of Prior Coverage ............................................................................... 37
Appendix C. Organizations Contacted and Visited ................................................................ 41
Appendix D. Afghan/U.S. Policy, United States Code, Federal Regulations,
            and DoD Policies ................................................................................................. 43
Appendix E. Organization of the ANA Training and Education Enterprise ....................... 45
Appendix F. Management Comments...................................................................................... 49
Appendix G. Report Distribution ............................................................................................. 59
THIS PAGE INTENTIONALLY LEFT BLANK
Introduction
Background
The goal of the United States in Afghanistan is to disrupt, dismantle, and defeat al Qaeda, and to
prevent its return to Afghanistan or Pakistan. Specific U.S. objectives in Afghanistan are to deny
safe haven to al-Qaida and deny the Taliban the ability to overthrow the Government of the
Islamic Republic of Afghanistan (GIRoA). 1 Developing Afghan National Army (ANA) leaders
is important to enabling this strategy.

The International Security Assistance Force (ISAF) and its subordinate commands have sought
to grow the capacity and capability of the ANSF in order to provide a secure environment for a
sustainable peace. The mission of North Atlantic Treaty Organization (NATO) Training
Mission-Afghanistan (NTM-A) has been to support GIRoA in generating and sustaining the
ANSF, developing ANSF leaders, and establishing enduring institutional capacity to enable
accountable, Afghan-led security. The mission of ISAF Joint Command (IJC) in full partnership
with the Afghan National Security Forces (ANSF), has been to conduct population-centric
comprehensive operations to neutralize the insurgency in specified areas, and to support
improved governance and development in order to protect the Afghan people and provide a
secure environment for sustainable peace.

The two key challenges to developing effective leaders in the ANA were its rapid growth rate
and lingering effects of long-term instability in Afghanistan. The ANA grew rapidly, from a
strength of 95,000 in October 2009 to an end-strength of just over 182,000 as reported in
September 2012, approaching its funded end-strength ceiling.

While the ANA planned to continue to generate enabling forces through 2014 and beyond
(including airpower, engineer, signal, and other combat support units), as of the middle of 2012,
the Coalition had shifted its primary emphasis from recruiting and force generation to improving
the overall quality, training, and preparedness of the ANA force. Increasing the quality and
capacity of ANA officer and non-commissioned officer (NCO) training was integral to this
effort, and in November 2011, the NTM-A Commander stated that developing Afghan leaders
was one of his top priority. Despite this commitment, in both the April and December 2012 DoD
Report on Progress Toward Security and Stability in Afghanistan (Section 1230) reports
“leadership deficits” was cited as a continuing challenge.

Thirty-plus years of instability and war in Afghanistan had impacted the development of
effective ANA officers and NCOs. After almost two generations of political instability and
internal conflict, the resulting lack of military professional education and training seriously
degraded the available leadership recruiting pool (human capital). It is impossible to be an
effective leader in a modern military without being able to read, write, count, or understand
simple math. The Coalition understood this challenge and made literacy training and, as
necessary, testing mandatory for all ANA recruits.


1
    Report on Progress Toward Security and Stability in Afghanistan (Section 1230 Report), December 2012, pg.11.

                                                         1
More specifically, the demographics of the ANA provided a foundational challenge for
developing the leadership of the officer and NCO corps. There were currently three generations
of leaders in the ANA. The oldest and usually the most senior in rank tended to be Soviet trained
and served in the military during the Soviet occupation. The youngest were the U.S. and
Coalition trainees. The middle group can overlap with the first, but the difference tended to be
this cohort did not have the resources, or perhaps the inclination, to leave the country during the
Taliban times. Hence, many of them stayed and fought with the mujahedin. This group tended
to be less formally educated than the other two groups, but they were sometimes regarded as
very strong tactical leaders.

The ANA was challenged to identify the best leaders among these groups and advance them on
merit, remove those who did not meet the standards of effectiveness, while providing
opportunity for advancement for the best of the newest generation. This constituted a significant
challenge for any military organization, especially one recently created and confronting an
ongoing insurgency while their external support draws down.

Objective
On February 28, 2012, the DoD OIG announced the “Assessment of U.S. and Coalition Efforts
to Develop Leaders in the Afghan National Army.” The primary objective of this assessment is
to assess the sufficiency and effectiveness of the Coalition's programs for developing ANA
officers and NCOs.

The ANA Leader Development Training Enterprise
The Coalition and the Afghan Ministry of Defense (MoD) had designed, approved, and built the
ANA training enterprise 2 comprised of two major commands: the Afghan National Defense
University (ANDU) and the Afghan National Army Training Command (ANATC). Both
commands worked in coordination with the G-7 (Training and Education) of the ANA GS. This
robust ANA training enterprise was built in response to the need to quickly generate Afghan
security forces.

Overview of the ANA Training Commands
The schools comprising the ANA training enterprise were assigned to either the ANDU or
ANATC. See Appendix E for a more detailed description of the ANA training enterprise.

ANDU was responsible for the professional military education of the ANA and the development
of future military and civilian leaders through its academic and military programs. The ANDU
consisted of the following schools:

    •   National Military Academy of Afghanistan (NMAA),
    •   Command and Staff College,
    •   ANA Sergeants Major Academy,
    •   Counter Insurgency Training Center,

2
  Throughout this report we use the term “ANA training enterprise” to refer collectively to all ANA schools,
regardless of their particular organization of assignment. See also Appendix E.

                                                         2
   •   Kabul Military High School,
   •   ANA Officers’ Academy (not established as of October 2012), and
   •   Afghanistan Foreign Language Institute (not established as of October 2012).

ANATC was primarily responsible for building and sustaining the ANA, training the soldiers
and officers of the ANA, and development of doctrine. ANATC facilities were located in Kabul
and throughout the country.

   •   Kabul Military Training Center (KMTC) – Basic Warrior, Basic Officer, Female, and
       NCO training.
   •   Branch Schools -
          o Combat Arms (Infantry, Armor, Artillery),
          o Combat Support (Engineer, Signals, Military Police),
          o Combat Service Support (Logistics, Human Resources & Financial),
          o General Services (Legal, Public Affairs, Religious and Cultural Affairs).
   •   Regional Military Training Centers (RMTC) – aligned with ANA Corps–
          o RMTC-North, Mazar-e-Sharif,
          o RMTC-East, Khowst/Gardez,
          o RMTC-South, Kandahar,
          o RMTC-Southwest, Shorabak, and
          o RMTC-West, Shindand/Herat.

ANA Recruit Training Flow
In 2012, recruits received basic soldier, branch specific, and unit collective training prior to
assignment in the field force (See Figure 1-1). After enlistment, recruits attended Basic Warrior
Training (BWT) at either the KMTC or one of the five RMTCs, or in the case of recruits with
sufficient education and aptitude, a combined Basic Warrior and NCO course (1 Uniform
Course). Individuals selected for NCO training at the completion of BWT attended the four-
week Team Leader Course. All officer, NCO, and enlisted graduates then attended functional
branch school training. During ANA force generation, enlisted graduates, with their leadership,
were assembled into units and trained for seven weeks as a unit at the Consolidated Fielding
Center. The complete unit was then assigned to an ANA Corps.




                                                3
                     Figure 1-1. ANA Training Process During Force Generation




 Source. NTM-A. Note: BWT is now 8 weeks in duration. The Intelligence Branch School is not
 assigned to ANATC.

Additional Issues of Concern
We found several issues of concern for NTM-A which will be discussed in more detail
throughout the report.

Although the Coalition forces and Afghan leadership had established a robust training enterprise
to support the ANA, its continued success depended on many factors.

   •   The enterprise was training NCOs based on the U.S. Army model, but it was unclear if
       the ANA officer corps were willing to accept the chosen model or if developing support
       systems would support their proper use.
   •   The underdeveloped ANA personnel system, including assignments, promotions,
       recordkeeping, and retirements, hindered the growth of the new generation of leaders.
   •   The availability and control of funding raised the question of long-term sustainability of
       the training enterprise.
   •   The feedback regarding graduates and programs of instruction was required to keep the
       enterprise relevant to field units.

There were two significant issues facing both NTM-A and IJC.

   •   Dated assessment practices hindered NTM-A and IJC from reliably gauging leader
       development impacts since there was no adjustment to their data collection and



                                                    4
       information sharing practices to reflect the shift in mission emphasis from building force
       strength to improving the quality of the ANA.
   •   Among U.S. advisors at NTM-A institutional schools, courses, and training programs, we
       observed a wide variance in aptitude and competence for their mission to help
       institutionalize leadership training across the ANA. The lack of standardized selection
       and training requirements for advisors from all sources working at NTM-A institutional
       schools, courses, and training programs created a pool of advisors whose skill sets and
       interests were not necessarily suited to the advising mission.

Literacy Program
The ongoing literacy program deserves mention with regard to the development of ANA
leadership. The success of this program was essential to improving nearly all aspects of the
ANA and was critical to leader development. Literacy remains an enabler for soldier and NCO
development, and creates a more discerning citizen for Afghan society. Despite challenges, the
program had achieved impressive results and appeared to be well received throughout the ANA.




                                               5
THIS PAGE INTENTIONALLY LEFT BLANK




                6
Observations and Recommendations
Observation 1. The Role of Non-Commissioned Officers in
the Afghan National Army.
NCOs in ANA units were not officially delegated the authority and responsibility they had come
to expect from their training and were capable of conducting.

This occurred because: 1) the officer/NCO relationship model taught to NCOs during instruction
was not presented in ANA officer training; 2) policy and guidance defining roles, delegating
responsibilities, and granting authorities for ANA NCOs was not completed and approved; 3) the
enhanced role for NCOs envisaged was not consistent with the traditional ANA officer-NCO
relationship and required a cultural change in officer attitudes to be accepted.

As a result, in spite of significant efforts invested in by the training establishment to train and
develop NCOs, they were significantly underutilized and unable to perform the roles intended
that could benefit their units' effectiveness.

Applicable Criteria (See Appendix D, Number 1, 6, and 8, for additional details.)
   •   ANA 6-22, Army Leadership, August 1, 2007.

   •   Joint Center for International Security Force Assistance (JCISFA) Document, The Afghan
       National Security Forces - Advisor Guide, Sections 2 and 6, June 2012.

   •   MoD Directive 5001, Ministry of Defense Organization and Functions Manual, March
       29, 2011.

Discussion
Interviews with ANA senior officers, unit commanders, staff officers, and NCOs generally
provided a common understanding of the appropriate role for NCOs according to which NCOs
should train soldiers, be technical specialists, and act as the “bridge between officers and the
soldiers.” However, actual field implementation of NCO roles designed for the ANA and taught
in NCO schools fell substantially short of what was intended and required. Senior NCOs
expressed frustration at their inability to exercise authority, which officers still retained, and to
be able to provide for their soldiers' basic personnel and logistical needs.

ANA officials and Coalition advisors interviewed stated that officer training and instruction did
not include specific lessons on the role of the NCO for several reasons. First, the Afghan officer
corps had not agreed on a common position regarding the specific responsibilities and authorities
for NCOs. Second, Afghan military history lacked a precedent for a more modern-style
officer/NCO relationship, further complicated by cross-ethnic/tribal friction. Third, the role of
the NCO in the ANA had not been codified in its policy and effectively transmitted to field units.
All of this made it difficult for Coalition advisors to effectively emphasize the officer/NCO
concept that was accepted, in principle, by senior MoD and GS officials.


                                                  7
ANA 6-22, “Army Leadership,” established “fundamental principles for all officers,
sergeant/senior sergeant corps, and army civilians across all components.” ANA 6-22 included a
vision for the NCO corps, and stated overarching expectations concerning the responsibilities of
NCOs in the ANA. However, as of October 2012, the ANA had not promulgated policy that
specifically defined NCO roles and authorities and their relationship to officers and army civilian
leaders. Senior NCOs stated that, without signed policy, they had no authority in the field to
challenge actions by superiors that contradicted lessons learned in NCO development courses.

The training and development of NCOs was an integral part of the ANA leader development
enterprise. Most MoD officials and senior ANA officers interviewed agreed that the various
ANA NCO schools were important to develop leadership and technical skills and pointed to the
progress made in producing trained NCO leaders. But, ANA officer attitudes tended to reflect
their education and experience. Junior officers were more accepting of a more effective NCO
corps but mid-career officers, especially those whose formative experience was with the Soviet
army or mujahedin, had not embraced fully the more robust military NCO role. Therefore, in
spite of NCO training efforts, the employment of NCOs as small unit leaders was not a common
practice within the ANA.

Coalition officials concurred that acceptance of the roles and responsibilities of NCOs, as taught
in the training enterprise, was hindered by the lack of Afghan-suitable policy and guidance that
defined roles, delegated responsibilities, and detailed the legal authorities for NCOs in the
performance of their duties. Verbal endorsement from the ANA Chief of the General Staff
(CoGS) was not sufficient to overcome Afghan military history and tradition, and lack of written
ANA official verification concerning the empowerment of NCOs. Coalition advisors expressed
uncertainty over ANA acceptance and institutionalization of expanded NCO roles and
responsibilities in the future.

Conclusion
Senior ANA officials supported a strong NCO corps, and the training enterprise reflected this
support. These NCO training programs intended to prepare them to be small unit leaders and
technical experts managing other ANA soldiers. Nevertheless, there was no official requirement
for ANA commanders to embrace, enforce, practically apply and positively act to empower
NCOs with leader authority. Until and unless ANA policy and command guidance clearly
establish the enhanced role for NCOs envisaged by the Coalition forces and accepted in principle
by senior MoD and ANA officials, NCOs will not have the support to receive and perform small
unit leader responsibilities and roles.




                                                8
Recommendations
 1. Commander, North Atlantic Treaty Organization Training Mission-Afghanistan, in
 coordination with the Commander, International Security Assistance Force Joint Command:
        a. Assist the Chief of the General Staff, Afghan National Army to complete, approve,
 and publish policy and guidance defining the roles, responsibilities, and authorities of an
 Afghan non-commissioned officer.
         b. Assist the Chief of the General Staff, Afghan National Army to ensure that officer
 instruction includes appropriate lessons addressing non-commissioned officer roles,
 responsibilities, and authorities.
          c. Assist Afghan National Army Commanders of headquarters, institutional
 organizations, and fielded units with implementing, supporting, and complying with approved
 Afghan National Army non-commissioned officer policies and guidance, while ensuring that
 all Coalition mentor and adviser teams are trained on these policies upon their arrival in
 theater.


Client Comments
NTM-A concurred with comment to Recommendation 1.a., noting the planned June 2013 review
of MoD Directive 50012, the Organization and Functions Manual, and the opportunity to include
NCO position descriptions developed by the Sergeant Major of the ANA and his working group.
Support from senior ANA leaders will be important to the Organization and Functions Manual’s
modification and subsequent distribution of the manual to training schools and field ANA units.

NTM-A concurred with comment to Recommendation 1.b., noting the opportunity to modify
appropriate courses of instruction.

NTM-A concurred with comment to Recommendation 1.c., suggesting a rewording for clarity of
the recommendation and noting the addition of changes to the Organization and Functions
Manual detailing duties and responsibilities of NCOs in the ANA will assist Coalition advisors to
have a common point of reference for NCO performance.

Our Response
NTM-A’s comments to Recommendation 1.a. were responsive. In six months, we will request a
copy of the updated Organization and Functions Manual.

NTM-A’s comments to Recommendation 1.b. were responsive. In six months, we will request a
copy of the officer training plans of instruction meeting the intent of the recommendation.

NTM-A’s comments to Recommendation 1.c. were responsive. We accepted their suggested
revision to the wording of this recommendation. In six months, we will request a copy of the
updated Organization and Function Manual.




                                                9
THIS PAGE INTENTIONALLY LEFT BLANK




                10
Observation 2. Afghan National Army Personnel
Management
The ANA lacked a comprehensive and effectively functioning personnel management system to
support merit-based promotion and assignments.

The ANA personnel system in place in late 2012:

   •   was paper-based with individual personnel files missing and many files incomplete;
   •   centralized decision authority for virtually all personnel actions (promotions,
       assignments, nominations for schools and other training);
   •   provided incomplete records of service and school and training attendance to separating
       personnel;
   •   included a functioning retirement system that was viewed as unattractive; and
   •   allowed favoritism and nepotism to taint the assignment, promotion, and other selection
       processes with no effective countermeasures.

This caused uncertainty for many soldiers, NCOs, and officers regarding career development and
retirement prospects, and limited the ANA's ability to reduce personnel attrition and increase
retention. Furthermore, the lack of a meaningful and attractive retirement system also
contributed to a backlog of older less effective, or ineffective, personnel, remaining on active
duty in the ANA, hindering upward mobility for younger, better educated, institutionally trained
officers and NCOs.

Applicable Criteria (See Appendix D, Number 2 and 3, for additional details.)
   •   BLUEPRINT – ANA Personnel System, NTM-A, dated 13 November 2012.

   •   Combined Training Advisory Group – Army, Development Plan for the Afghanistan
       National Army Training & Education Command 2011 – 2014, version 2.1, 1 April 2011.

Discussion
ANA Personnel System
The ANA could not maintain accurate personnel records and thus achieve personnel
accountability using their manual ledger system. The manual system only accounted for a
portion of all personnel records and did not facilitate branch wide assignment management
procedures. It did not capture accurately school, training, or performance data. There was no
centralized database of disciplinary actions, award information, medical qualifications, or
literacy scores. The existing system limited data interchange, compilation, and analysis,
hindering effective human resource decision making.

Moreover, MoD and ANA senior leadership had no systematic process to counteract the
reportedly entrenched cultural practice of rewarding family, friends, and tribal allies with
positions and promotions. These practices effectively perpetuated a non-merit based system of
assignment and promotion that undermined effective personnel management and leadership
development.

                                               11
Further, it was noted that in order to support the goal of ethnic balancing across the ANA, a
highly centralized command and control of the personnel system was in place. Therefore, only
the most senior leaders at the MoD and the ANA GS were empowered to ensure deserving
personnel received merit-based promotions and appropriate assignments to field units, schools,
and other training. But, on the other hand, this high level intervention in determining promotions
and assignments discouraged high performers who were not so well politically connected. Some
personnel expressed frustration with this, discouraging them from pursuing a merit-based
military career and negatively impacting the development of the most effective ANA leadership.

In some cases, soldiers and junior NCOs provided specialized skills training were assigned duties
inconsistent with their training. For example, soldiers trained as medics had been assigned to
administrative duties on headquarters staffs because of their literacy and competence. In
addition to those improperly utilized soldiers, the high operational tempo of fielded units has
limited the ability to accommodate a rotational training cycle for their personnel. This resulted
with some leaders in combat units operating for years without any breaks for institutional
military training, affecting unit performance and morale.

ANA personnel had little confidence in the ability of the government to continuously pay
benefits after ones retirement. Therefore, the ANA retirement system was inadequate as an
enabler in the development and sustainment of an effective military force.

General frustration with ANA personnel system practices discouraged some personnel,
contributing to soldiers leaving the ANA before completing their initial enlistment, as well as
mid-grade officers and NCOs leaving the ANA prior to reaching retirement eligibility. The loss
of junior soldiers reduced retention and increased attrition rates, recruiting and training
requirements, and associated costs. The departure of mid-grade personnel with training and
combat experience also cost the ANA needed expertise and the loss of investment made in their
professional development.

According to ANA officers, existing personnel management practices virtually prevented
commanders from eliminating incompetent or ineffective leaders. The advisor to the ANA Chief
of Administration believed that implementation of an automated system for personnel
management could help address this problem, if it included effective oversight controls and
decentralized approval authority for some actions.

Specific to the retirement system, according to interviews with ANA officers and Coalition
advisors, its lack of credibility and uncertain funding negatively impacted older mid-level
officers and NCOs (over the age of 50) with service pre-2002. These individuals generally
lacked education, had limited prospects for employment after retirement, and no confidence that
their retirement pay would enable them to maintain their military standard of living. As a group,
these older mid-level officers and NCOs believed they had little prospect of post-military service
upward economic mobility, notwithstanding their military education and training.




                                               12
Based on these disincentives and lack of incentives, as well as no objective processes in place to
manage the right people in the right job at the right time, the ANA appeared to perpetuate a
degree of inefficiency that will severely limit professionalization of the army in the future.

Coalition Efforts
In late 2012, with Coalition planning and facilitation assistance, the ANA issued the
“BLUEPRINT – ANA Personnel System”, as shown in Figure 2-1. The system proposed a
concept for integrating enlisted, NCO, and officer recruiting targets, training systems, branch
management, career progression, and the transition of personnel out of the ANA through
separation or retirement. This comprehensive reform plan for the ANA personnel system
promised to foster continued military professional education and meritorious performance and to
provide enhanced incentives to remain in military service to retirement.
                   Figure 2-1. BLUEPRINT for Improving the ANA Personnel Management




  Source. NTM-A.

Full implementation of the BLUEPRINT would likely serve to foster long term
professionalization of the ANA. The success of the system depended on the ANA developing,
promulgating, and enforcing comprehensive doctrine and policy, and fielding and using the



                                                13
automated Afghan Human Resources Information Management System which was transitioned
to Afghan authority in December 2011.

Conclusion
Introduction of the “BLUEPRINT – ANA Personnel System,” demonstrated that ANA with
strong support from the Coalition, had planned and begun implementation of potentially
enduring improvements necessary to establish an effective and sustainable ANA personnel
system. Universal acceptance of such a system by ANA leadership would be critical and
reportedly remained a challenge.

Senior Coalition/MoD/ANA leaders interviewed agreed that the new personnel system being
implemented would fundamentally improve ANA personnel and operational performance and
sustainability if it:

   •   accurately tracked, projected, and accounted for relevant personnel data and branch
       requirements,
   •   instituted an objective merit based assignment and promotion system,
   •   ensured that all personnel were trained in their duties and responsibilities by competent
       and experienced instructors,
   •   established a positive incentive program to move older less effective members out of the
       ANA, and
   •   funded a benefits and retirement system that retained and motivated with appropriate
       incentives ANA personnel that met performance measures.

Recommendations
 2. Commander, North Atlantic Treaty Organization Training Mission–Afghanistan, assist the
 Minister of Defense and the Chief of the General Staff to establish and implement
 comprehensive personnel management policies and systems that will:
       a. Accelerate implementation of the Afghan Human Resources Information
 Management System.
       b. Incorporate a merit based promotion and assignment system that accounts for
 Afghan cultural norms and is compatible with Government of the Islamic Republic of
 Afghanistan policies on ethnic balancing.
        c. Establish personnel rotation policies that ensure all personnel are properly trained
 and assigned.
       d. Include a program to separate non-productive personnel from the Afghan National
 Army that still encourages their loyalty to the Government of the Islamic Republic of
 Afghanistan.
         e. Fund a credible benefits and retirement system that provides incentive for personnel
 to make a career in the Afghan National Army that at the same time allows for future shaping
 of the force.



                                                14
Client Comments
NTM-A concurred with comments to Recommendation 2.a. They described some limitations of
AHRIMS, anticipated changes with a new AHRIMS support contract, and problems with the
supporting infrastructure. NTM-A suggested the continued use of paper-based system until
country-wide infrastructure improvements are adequate to support AHRIMS.

NTM-A concurred with Recommendation 2.b. The Command noted that cronyism and nepotism
influence promotions and assignment at all levels. However, efforts are underway to support the
November 2012 ANA promotion policy with appropriate regulation for its implementation.

NTM-A concurred with Recommendation 2.c., citing the Sergeant Major of the ANA’s proposed
modification to the soldier and NCO assignment policy.

NTM-A concurred with Recommendation 2.d., providing no additional comments.

NTM-A concurred with Recommendation 2.e., adding comments on the Ministry of Labor,
Social Affairs, Martyrs and Disabled military retirement handbook detailing officer and NCO
retirement procedures.

Our Response
NTM-A’s comments to Recommendation 2.a. were responsive. We request an update on any
changes to the existing, or the completion of a new, AHRIMS support contract.

NTM-A’s comments to Recommendation 2.b. were responsive. In six months, we will request
an update on efforts to implement the November 2012 ANA promotion policy.

NTM-A’s comments to Recommendation 2.c. were responsive. We request the Command
provide a copy of any proposed or implemented changes to officer assignment policies.

NTM-A’s reply to Recommendation 2.d. were responsive. In six months, we will request an
update on efforts to meet the intent of the recommendation.

NTM-A’s comments to Recommendation 2.e. were responsive. In six months, we will request
an update on the development of a credible ANA benefit and retirement system.




                                              15
THIS PAGE INTENTIONALLY LEFT BLANK




                16
Observation 3. Budgeting for Afghan National Army Schools
Commanders of the ANA schools comprising the training enterprise had a limited ability and
almost no authority to control and execute organization budgets.

This occurred because the MoD and ANA GS maintained authority/approval over budgeting and
the distribution of funds for execution. Also, Coalition Forces had not transferred complete
budget authority for ANA operating funds to the Afghans.

Reluctance by the MoD to allow lower echelons to program and execute budgets hampered the
development of training enterprise budgeting and accounting expertise. The lack of expertise led
to limited ability to plan for actual projected costs, to include sustainment of facilities, and to
request appropriate funding. Finally, centralized distribution of money caused training
organizations located outside Kabul to be dependent on operational commanders for their
support.

Applicable Criteria (See Appendix D, Number 3, for additional details.)
   •   Combined Training Advisory Group – Army, Development Plan for the Afghanistan
       National Army Training & Education Command 2011 – 1014, version 2.1, 1 April 2011.

Discussion
During interviews with training enterprise organizations, Afghan leadership stated that they were
only provided funds for immediate expenses and only after requesting the funds from higher
headquarters. The senior leadership at the National Military Academy Afghanistan (NMAA)
stated they had no budget and that annual funding had to be requested through the Afghanistan
National Defense University (ANDU) to the MoD. Coalition advisors reiterated the message,
highlighting the Afghan system of funds allocation as a weakness. Budgeting and funding
execution for all but immediate needs was held at the MoD.

However, it was clear that Coalition Force procedures contributed to Afghan lack of expertise.
Funding support for ANSF operations was provided by international donors, with the DoD
Afghanistan Security Forces Fund providing a major part. As of October 2012, many key
finance functions were performed by NTM-A advisors, not MoD officials. Representatives from
the NTM-A Comptroller explained that they controlled the direct contribution of funds to the
Afghan MoD and also performed all programming, planning, budgeting, and execution actions.
NTM-A was developing a joint spending plan with the Afghan MoD in order to transition
responsibility for all financial transactions now performed by Coalition Forces.

The primary consequence of Coalition control and Afghan MoD fiscal centralization was a lack
of budgeting and accounting expertise development throughout the ANA. During interviews,
commanders and staff of ANA training facilities focused primarily on the cost of operating the
schools, consisting of items needed for instruction and support of the resident students. Facility
operating and maintenance costs were generally not part of the discussion. Both the commander
and the advisor for the Construction & Property Management Department in the MoD stated that



                                                17
the lack of attention paid to facility sustainment costs was not unique to the ANA training
enterprise.

The institutional training organizations comprising the ANDU were located in Kabul. In
contrast, ANATC had authority over the five regional military training centers (RMTC) plus the
Engineer Branch School outside the Kabul area, creating additional challenges. Each of the
training centers was aligned with an ANA Corps headquarters, and Coalition advisors reported
that it was not uncommon for Corps commanders to regard aligned training centers as “theirs”,
that is, belonging to their command. The inability of ANATC to provide financial support to the
training centers encouraged commanders of the training centers to request resources from the
nearby Corps. This dependency increased the influence of the local commander, at the expense
of ANATC, and did nothing to improve the accounting and programming abilities of the ANA
schools.

While the lines of command and control authority over regional training centers were crossed,
the commander of the ANA Engineer Branch School described it as an actual problem that his
organization did not have a local Corps “sponsor.” The commander stated that he had no
budgeting authority to disburse funds for the simplest of items necessary for running an effective
school. He was required to request all basic supplies (desks, paper, printers, etc.) as well as
specialized equipment (explosives, transportation, etc.) previously supplied by the Coalition
advisors through the ANA logistics system. The commander reported that logistical support was
uneven at best. The school was expected to occupy a new $30 million facility in 2013, but he
expressed no confidence that the school would receive financial resources to sustain the facilities
and equipment or be able to purchase necessary supplies for instruction.

Conclusion
The inability of ANA training enterprise schools and training centers to control and execute
budgets hindered effective operation and their mission of leader development. Changes to MoD
budget practices were necessary to ensure sustained, effective operations after complete
transition to Afghan lead.

Recommendation
 3. Commander, North Atlantic Treaty Organization Training Mission–Afghanistan, assist the
 Minister of Defense and Chief of the General Staff, Afghanistan National Army to:
         a. Develop operating budget estimates for the Afghan National Army training
 enterprise – by specific location or local command.
         b. Develop and implement an MoD process to delegate and maintain oversight over
 essential operating and maintenance funding to training centers.


Client Comments
NTM-A concurred with Recommendation 3.a., adding comments detailing the institutional
challenges in implementing budgetary authority and control below the MoD level.



                                                18
NTM-A concurred with Recommendation 3.b., adding details about the coordination between the
Coalition’s Engineering division and the MoD’s Construction and Property Division.

Our Response
NTM-A’s comments to Recommendation 3.a. were responsive. We recognize the long-term
nature of this recommendation and acknowledge the initiatives cited in the comments such as
NTM-A CJ8’s support to ANDU and ANATC to develop budget estimates for the coming years.

NTM-A’s comments to Recommendation 3.b. were responsive.

In six months, we will request an update on the status of both recommendations.




                                              19
THIS PAGE INTENTIONALLY LEFT BLANK




                20
Observation 4. Afghan National Army School Course Quality
None of the schools comprising the ANA training enterprise were making systematic qualitative
changes in the programs of instruction based on the:

   •   performance in the field of their graduates,
   •   recent lessons learned transmitted to them by field commands, and
   •   the experience of recent field soldiers as instructors.

The ANA had no formal mechanism to collect feedback on field performance from the ANA
Corps concerning the quality of performance of training school graduates. School faculty lacked
an awareness of what adjustments to make in the training curriculum and the schools did not
have sufficient instructor staff with field experience to draw on in this regard. Moreover, recent
field lessons learned were not being collected and integrated into programs of instruction on a
regular basis.

As a result, the training programs were missing the opportunity to improve the capability of
graduates by incorporating the most effective tactics, techniques, and procedures and thus
prepare them to become the most effective leaders.

Applicable Criteria (See Appendix D, Number 3, for additional details.)
   •   Combined Training Advisory Group – Army, Development Plan for the Afghanistan
       National Army Training & Education Command 2011 – 1014, vers. 2.1, 1 April 2011.

Discussion
Interviews with senior ANA officials and Coalition advisors indicated that there was little
systematic coordination between the ANA training enterprise and field Corps to update course
curricula to reflect unit battlefield reality and needs. This was the case with schools under the
authority of the ANDU and ANATC. (See Appendix E.)

Feedback on Graduate Performance
Commanders and Coalition advisors at two institutions within the ANDU reported that there was
no formal means of assessing graduate performance in the field. The commander of the NMAA
stated that, while no formal process was in place, he received informal feedback from Corps
commanders through personal contact with the CoGS. The Commander of the Command Staff
College also reported that his instructors visited units and adjusted the program of instruction as
necessary.

Interviews with senior leaders of ANATC branch schools and training centers yielded similar
responses. There was no comprehensive system to collect information on graduate performance
or to update the programs of instruction based on recent operational unit experiences. Staff
officers assigned to the ANATC stated that they were unable to conduct site visits to ANA Corps
due to a lack of transportation. In addition, the Commander of the Junior Officer Course said
that while there was no formal system, on at least one occasion, his instructors visited ANA unit
commanders to solicit recommendations for course curriculum changes.


                                                21
Senior Coalition advisors interviewed showed awareness of the absence of a systematic feedback
loop to update program of instruction curriculum. In addition to school advisors, the advisor to
the CoGS and the NTM-A Deputy Commander-Army (DCOM-A) cited a need for an effective
process to support the preparation of ANA leaders by providing them the most current lessons
learned from field units.

The explosive ordnance specialty provided an example of success worth noting. They used an
informal network of Coalition advisors to keep track of explosive ordnance disposal school
graduates and their performance in field units. However, the small number of graduates and
reliance on Coalition support likely made this model unique and not readily exploitable or
sustainable by other career fields.

School Instructor Assignments
Absent a comprehensive graduate assessment feedback process, assigning instructors with recent
operational experience to schools could encourage changes and improvements to training
programs. However, interviews with ANA training enterprise leaders and advisors indicated that
this was not a common practice.

The Commander of the NMAA cited a shortfall in experienced qualified instructors. Coalition
advisors noted that were too many staff instructors with limited or no military background and
only token academic credentials. While there were faculty development programs ongoing, 60
instructors on contract were programmed to reach the end of their term in 2013. Some of these
slots were expected to be filled with new NMAA graduates retained as instructors, continuing a
practice that reflected the shortage of trained, educated Afghans, or a system to assign instructors
from field units. Retaining graduates as instructors served a short term need, but did not increase
the knowledge and experience base of the instructor staff and denied recent graduates operational
experience.

The Commander of the Command and Staff College Junior Officer course said the school had a
policy to rotate instructors every three years. Because the school had been in existence less than
three years, the policy had not been fully implemented. Coalition advisors added that those
instructors who had departed usually rotated from the school to an assignment in the MoD and
then returned.

The branch schools in the ANATC had the same problem, but for a different reason.
Commanders of the Infantry, Military Police, and Engineer Branch Schools all said that the GS
or MoD managed the instructor assignment, screening, and selection process without their input.
Professional qualifications were not necessarily the deciding factor.

School faculty were therefore unaware of the need for necessary adjustments to training
curriculum, missing the opportunity to disseminate combat lessons-learned and potentially
allowing the curriculum to become out-of date. The ANA was at war and needed qualified,
informed instructors to prepare graduates to be effective in the field. Teaching less effective
tactics, techniques, and procedures puts soldiers at risk and burdens field commands with re-
training requirements.


                                                22
At the end of 2012, the ANA was rapidly taking the operational lead and had an increasing need
to gain and transmit the most useful tactics through their training schools. Arguably, the most
effective way to prepare soldiers, NCOs and officers would be to ensure recent lessons learned
were disseminated throughout the organization at the training base using combat experienced
instructor staff. While this might create a short-term impact on the unit losing combat-
experienced personnel to become instructors, the ANA overall, and the field units in particular,
would gain in professionalism as a fighting force in the medium-term.

Conclusion
The ANA training enterprise lacked a systemic process for assessing graduate field adaptation
and capturing lessons learned, and generally did not assign instructors with field experience.
Better communication between the Corps and the ANA training enterprise regarding personnel
performance in their units after graduation, field unit training needs, coupled with the Corps
furnishing combat veterans to the schools as instructors, would enable the necessary progressive
improvement of ANA training courses' quality and further leader development.

Recommendations
 4.a. Commander, North Atlantic Treaty Organization Training Mission–Afghanistan, advise
 the Commander, Afghan National Army Training Command to develop and institute a
 feedback mechanism with the Afghan National Army Corps Commanders regarding the
 performance of training school graduates, and lessons learned that need to be embedded in the
 programs of instruction.
 4.b. Commander, North Atlantic Treaty Organization Training Mission–Afghanistan, advise
 the Chief of the General Staff, Commander, Afghan National Defense University, and
 Commander, Afghan National Army Training Command to develop and enforce an
 assignment policy that selects the best qualified instructors with field experience for Afghan
 National Army schools.


Client Comments
NTM-A concurred with Recommendation 4.a., noting that validation is a necessary step in
ensuring effective training.

NTM-A concurred with Recommendation 4.b., commenting on the need for including within the
MOS career paths such items as practical experience and instructional training and prerequisites
for instructor assignment.

Our Response
NTM-A’s responses to Recommendations 4.a. and 4.b. were responsive.

In six months, we will request an update on the status of both recommendations.




                                               23
THIS PAGE INTENTIONALLY LEFT BLANK




                24
Observation 5. Afghan National Army Literacy Training
ANA officers and NCOs did not always meet established requirements for education and literacy
and occasionally lacked literacy required for their duties.

This situation existed because the ANA sometimes assigned rank as a reward for past service or
individuals obtained assignments through non-merit-based mechanisms and, in either case, the
personnel system’s requirements for education and literacy for ANA leaders were circumvented.
Also, Afghanistan lacked a viable public education system for more than a generation leaving
much of the military-age population illiterate and innumerate.

Officers and NCOs who were not literate at the level required to attain that rank diminished their
credibility with enlisted personnel and the trust and confidence of better educated subordinate
junior officers and NCOs. Without having the essential literacy, officers and NCOs would have
difficulty with, or not even be eligible for, more advanced training. Also, ongoing operations
and tactical success achieved by leaders without required education allowed some ANA leaders
to view literacy training as a distraction to war fighting.

Applicable Criteria (See Appendix D, Number 3, for additional details.)
   •   Combined Training Advisory Group – Army, Development Plan for the Afghanistan
       National Army Training & Education Command 2011 – 1014, version 2.1.1 April 2011.

Discussion
Not all ANA leaders met the rank-specified literacy and education standards established in ANA
policy and regulation. After initial literacy testing and training during BWT, ANA advanced
schools and line units provided follow-on literacy training with the goal of every soldier
achieving literacy and numeracy to the third grade level. Soldiers selected or promoted to
become NCOs were required to achieve a ninth grade education. Officers were supposed to have
completed twelfth grade level education, as a minimum, and demonstrate progress toward a
college diploma upon commissioning. Senior officers were supposed to meet higher academic
proficiency standards prior to selection for attendance at senior staff schools.

However, many former mujahedin fighters and Soviet-era officers and NCOs joined the ANA at
a rank that rewarded earlier service and battlefield experience. And, some gained their rank and
position through personal influence, family connections, or ethnic loyalties. These officers and
NCOs were generally older, and were for the most part, uneducated or under-educated for the
rank they held. It was reported that, in some cases, commanders had to rely on their subordinates
to read and relay orders received from higher headquarters.

Achieving desired education standards was also a challenge because, for over a generation,
Afghanistan lacked a viable public education system. Many Afghans, especially those in rural
areas, never attended school. This resulted in a literacy rate of less than 15 percent of new ANA
recruits, as of 2011. Therefore, NTM-A has devoted a substantial effort to providing these new
ANA recruits with basic literacy and numeracy.




                                                25
Some Afghan leaders interviewed reported that ‘legacy’ officers and NCOs that were not literate
at the level expected of their rank diminished the trust and confidence of subordinate leaders.
This was particularly true for those junior officers and NCOs that joined the ANA with the rank-
requisite education, who had been developed by Coalition partners and advisors, and understood
the regulations.

Support for continued literacy training was not absolute across the ANA leadership. While
almost all Afghan leaders interviewed voiced support for the program, some Coalition advisors
indicated that ANA unit commanders below Corps viewed literacy training as a distraction to
war fighting. The same advisors reported that some ANA commanders believed that the time
spent in the classroom would be better spent training soldier skills or in the field conducting
combat operations. Another reported objection to the ongoing literacy program was that soldiers
achieving sufficient literacy increased turnover in the force by seeking other employment
immediately after or even during their enlistment. The counter to this concern, stated by one
senior ANA officer, is that the literate ANA who left the service raised the educational level and
economic capacity of the society as a whole.

In terms of its importance to professional development, both ANA and NTM-A senior leadership
actively promoted basic literacy training for soldiers as an enabler and force multiplier for the
ANA. Recruits were tested, and if necessary, enrolled in literacy classes during basic training.
The goal for basic training was that soldiers achieved rudimentary skills during 64 hours of
literacy instruction. In order to improve ANA soldier proficiency and overall ANA efficiency,
the Coalition funded continued literacy training in all ANA units.

With minor exceptions, virtually all ANA leaders and Coalition advisors interviewed
acknowledged the value of literacy in the ANA and the connection between increased literacy
and professionalization. They understood that the ability to read, write, and count had enabled
ANA soldiers to better grasp basic military skills and to use assigned weapons and equipment
more effectively. A soldier’s performance was reported to be more consistent and productive
when they had the ability to read operator and other training manuals.

Several senior Afghan and Coalition leaders believed that literate soldiers fostered secondary
benefits for the nation of Afghanistan. Any literate soldier that returned to the civilian sector
invariably had greater employment prospects than he did before he entered the ANA. Also,
literate Afghans had the ability to seek alternate sources of information, to objectively assess the
quality and accuracy of that information, and in the end, to discern what was right or wrong for
them and to ultimately make better decisions on which course of action they would or would not
follow. One senior Coalition official stated that basic literacy, “…allows Afghans to be more
discerning…,” less vulnerable to Taliban and other insurgent influences.

Conclusion
The assessment of all senior Coalition and senior ANA leaders interviewed was that, although
there were challenges to its implementation, the literacy program is one of the best ANA success
stories because it produced positive results for the ANA as a fighting force and for Afghanistan’s
progress as a country.


                                                 26
Recommendations
 5. Commander, North Atlantic Treaty Organization Training Mission–Afghanistan:
       a. Advise the Minister of Defense and the Chief of the General Staff to ensure that new
 noncommissioned officers and officers have attained the literacy levels required by regulation.
         b. Advise the Minister of Defense and the Chief of the General Staff to maintain the
 literacy program in the future and explore means for its expansion through additional
 cooperative nation programs and support from international non-governmental organization
 and/or partnerships with educational institutions.


Client Comments
NTM-A concurred with Recommendations 5.a. and 5.b. without comment.

Our Response
NTM-A’s replies to Recommendations 5.a. and 5.b. were responsive.

In six months, we will request an update on the status of both recommendations.




                                               27
THIS PAGE INTENTIONALLY LEFT BLANK




                28
Observation 6. Gauging Leader Development
Dated assessment metrics and practices, and divergent IJC and NTM-A mission focus hindered
their reliably gauging the impact of ANA leader development efforts.

NTM-A and IJC needed to shift their data collection criteria from force generation (quantity)
metrics to those measuring the quality and capability of ANA leaders and units. In addition,
while the primary concern for NTM-A was ANSF institutional development, IJC field
commanders were primarily engaged in operations and assigned lower priority to continuing
ANA leader development through the schooling system.

Assessment shortfalls by ANA subordinate commands impeded ISAF from effectively gauging
progress and systematically developing ANA leaders essential to transitioning to Afghan-led
security on scheduled timelines. Lack of clarity in assessing ANA leadership capabilities and
shortcomings could impede the ability of senior leaders to make transition training and other key
decisions based on reliable data and thus negatively impact mission success.

Applicable Criteria (See Appendix D, Number 4, 5, and 7, for additional details.)
   •   DoD Instruction 3000.05, Stability Operations, September 16, 2009.

   •   Handbook for Military Support to Rule of Law and Security Sector Reform, Unified
       Action Handbook Series Book Five, June 13, 2011.

   •   Measuring Progress in Conflict Environments (MPICE), A Metrics Framework, United
       States Institute of Peace Press, Washington, D.C., June 4, 2010.

Discussion
In 2012, the Commander, NTM-A received a monthly information brief that tracked ANSF unit
leader development and the Commander, IJC relied on the Commander’s Unit Assessment Tool
(CUAT). These data points, primarily based on quantitative measures, including personnel
strength, equipment on hand, training attendance, and literacy graduation rates, were indicative
of previous command emphasis on gauging force generation.

Impact of the Shifting Mission Emphasis
During 2012, the ANA, with the assistance of Coalition advisors, made steady progress in
fielding units that were planned for in the program of record. The priority of NTM-A and IJC
began to shift to ANA force professionalization. As a result, the general assessment emphasis
for the Coalition and its ANA advisors needed to shift from quantitative measures associated
with generating ANA forces to measuring capabilities of ANA units and the quality of their
leaders. NTM-A had not yet adjusted their assessment practices or measures to reflect this major
change in ANA development. IJC did gather some subjective data on the quality of ANA
leaders in operational units.

NTM-A remained largely oriented toward establishing and maximizing institutional school and
education course capacity, and training program throughput. Its assessed measures of progress
continued to stress quantitative metrics:

                                               29
    •   numbers of recruits,
    •   officer and NCO qualifications,
    •   percentage of personnel and equipment on hand,
    •   infrastructure completed,
    •   course fill rates,
    •   ethnic balance, and
    •   numbers of personnel educated to defined levels of literacy.

The CUAT used by IJC included, but went beyond, numbers of personnel and equipment.
Specifically, the tool collected advisor assessments of critical unit functions, one of which was
leadership. The assessment of leadership required subjective consideration of four qualitative
characteristics: Competence, Honesty, Influence, and Loyalty. However, the command had not
sufficiently defined and developed these measures.

US Joint Forces Command guidance states that assessment reliability depends on identifying in
advance key interrelationships and specifying the evaluation criteria and data gathering
methodology. Assessment criteria and methodology used by IJC in the CUAT were developed
in advance, but were just applicable to newly formed units. In late 2012, criteria and
methodology did not reflect emerging requirements to assess ANA qualitative performance.

Analysts should stress the need to minimize and anchor subjectivity by carefully describing the
proposed relationship between qualitative indicators and the conditions of interest. Best practice
suggests considering relationship strengths and weaknesses and identifying desired weights prior
to aggregating qualitative metrics. 3 Effective use of qualitative measures requires a written,
well-defined statement of the relationship between qualitative indicators and target conditions,
and an established range of estimated relative importance for each individual indicator.

Responses varied considerably regarding the priority and relative importance of the four
qualitative characteristics for leadership . This suggested that subjectivity had not been
effectively minimized and that interrelationships and relative weights among the four leadership
criteria used for assessment in the CUAT (i.e., Competence, Honesty, Influence, and Loyalty)
were not sufficiently detailed or uniformly applied. Effectively assessing leader quality required
that relationships between indicators and target conditions be redefined and restated.

Inconsistencies in assessment criteria and methodology impeded NTM-A and IJC from reliably
gauging the effectiveness of leader improvement efforts, which limited their ability to effectively
inform senior decision makers about critical near-term transition decision points and evaluate the
longer-term implications of progress, or lack thereof, in developing ANA leadership that will
impact ANA effectiveness and success.




3
 For a more detailed discussion see: “Best Practices Guide for Conducting Assessments in Counterinsurgencies,”
Dave LaRivee, Small Wars Journal, August 17, 2011, pages 25 and 26; smallwarsjournal.com.


                                                      30
Support of Institutional Leader Development Efforts
The primary mission of IJC commanders was ongoing combat operations, not assessing ANA
capabilities. They viewed NTM-A as responsible for institutional ANA leader development
efforts. As a consequence, there was limited incentive to systematically share information
relating to ANA leader development. IJC did not regularly schedule cross-command
conferences or other leader development information exchanges, and shared only a portion of the
total ANA leader performance information and awareness they possessed with NTM-A. IJC and
NTM-A officials interviewed supported this assertion. As the ANA matured, the limited
exchange of information increasingly deprived NTM-A of information essential to gauging
progress and systematically improving the quality of institutional ANA leader development
schools, training programs, and formal curriculums. As the IJC mission increasingly shifts to an
advise and assist role, feedback on leadership quality in operational forces is critical if NTM-A is
to advocate for adjustments in institutional professional development training.

Conclusion
As of mid-2012, command assessment measures had been developed to track ANA force
strength, including numbers of NCOs and officers generated. While those practices and
measures were useful, they were increasingly inadequate for gauging progress and systematically
improving the quality of longer-term ANA leader development efforts, especially institutional
ANA schools, training programs, and formal curricula.

Recommendations
 6. Commander, North Atlantic Treaty Organization Training Mission–Afghanistan, and
 Commander, International Security Assistance Force Joint Command:
       a. Update data collection criteria to reflect the shift in emphasis from building the
 Afghan National Army to improving its quality.
         b. Systematize sharing of Afghan National Army leader development information
 between the North Atlantic Treaty Organization Training Mission–Afghanistan and the
 International Security Assistance Force Joint Command.
        c. Promote improved use of qualitative measures by carefully identifying proposed
 weights and relationships between key indicators and the conditions of interest.


Client Comments
IJC concurred with Recommendation 6.a. without comment.

NTM-A concurred with Recommendation 6.a., adding the need for several intermediate steps
prior to full implementation of this recommendation. These steps include: 1) full fielding of the
ANA, 2) ANA leadership at MoD and the General Staff be well-versed in the analytical
techniques used in performance measurement, and 3) a written and approved plan for the
enduring post-2014 mission that allows quality assessments to be supportive of the plan’s
mission.

IJC concurred with Recommendation 6.b. without comment.

                                                31
NTM-A concurred with Recommendation 6.b., adding that with the coming reorganization of
NTM-A and IJC this goal will get increasing attention.

IJC concurred with Recommendation 6.c. without comment.

NTM-A concurred with Recommendation 6.c., adding that this recommendation be implemented
as part of a methodical plan, along with that of Recommendation 6.a.

Our Response
IJC’s replies to Recommendations 6.a., 6.b., and 6.c. were partially responsive. Since IJC will be
the senior Command with the upcoming reorganization, please provide information on how this
recommendation will be implemented in coordination with NTM-A.

NTM-A’s replies to Recommendations 6.a., 6.b., and 6.c. were responsive.

In six months, we will request an update on all three recommendations.




                                               32
Observation 7. Training Standards for NATO Training
Mission-Afghanistan Advisors
U.S. and Coalition advisors at NTM-A institutional schools and training programs demonstrated
a wide variance in aptitude and competence for the advising mission.

The lack of standardized training did not sufficiently clarify NTM-A expectations of the skills,
techniques, and cultural competencies necessary to effectively advise senior ANA leaders.

The resulting unevenness of advisor preparation limited advisor effectiveness and may have
delayed the professional development of ANA leaders.

Applicable Criteria (See Appendix D, Number 6, for additional details.)
   •   Joint Center for International Security Force Assistance (JCISFA) Document, The Afghan
       National Security Forces - Advisor Guide, Section 2, June 2012.

Discussion
NTM-A was responsible for leadership training and leader development at the MoD, GS, and
ANA institutional training sites. The command depended on a cadre of U.S., NATO, and other
Coalition advisors to provide instruction and support. Advisors provided from U.S. sources
included military Service members (active duty and reserves), DoD civilians, and civilians under
contract. NTM-A officials stated that each of the national and service-level components that
provided advisors had its own selection and training criteria.

Specifically, U.S. Military Services provided rosters of available personnel to fill validated
requirements for advisors. The consolidated roster included personnel from all Service branches,
with the U.S. Army providing the majority of candidates. Unfortunately, one of the primary U.S.
Army criteria for selection as an advisor was availability for deployment. As a result, NTM-A
officials described the process by which they selected advisors for institutional schools and
training programs as a "best match," based on criteria established by NTM-A. Depending on
specific advisor position requirements, some U.S. military personnel selected as advisors
attended the Combat Advisor Course at Fort Polk, Louisiana, prior to deployment to
Afghanistan.

In contrast, NTM-A selected advisors to the MoD using a process that included screening for
qualifications and pre-assignment training. Officials explained that NTM-A validated advisor
positions for each rotation, interviewed candidates prior to acceptance, and sent those selected to
a seven-week training course before assignment. The NTM-A DCOM-A also drew advisors
from the MoD program support contract. The contractor selected and trained civilians, many
with prior military experience, according to the statement of work developed by NTM-A.

From July to December 2011, NTM-A required incoming advisors to attend a five-day training
course upon their arrival in country. In 2012, the commander restructured NTM-A, delegating
the training to deputy commanders, after which programs of instruction and training status were

                                                33
not tracked by NTM-A. However, NTM-A officials were aware that the DCOM-A provided
three-day advisor courses in May and August 2012, concurrent with significant personnel
rotations. They said the command developed the course using existing advisors as subject matter
experts.

Conclusion
NTM-A institutional schools, courses, and training programs filled an important role in
institutionalizing leadership training across the ANA. Advisors staffed to these programs
directly impacted ANA leader development and professionalism. Standardized training prior to
assumption of duties would better prepare selected individuals for a successful advising mission.

Recommendation
 7. Commander, North Atlantic Treaty Organization Training Mission–Afghanistan, reinstitute
 standardized training for all advisors who will perform duties at the Ministry of Defense,
 General Staff, and Afghan National Army institutional training sites.


Client Comments
NTM-A concurred with Recommendation 7, commenting on the benefit of the job descriptions
that will be added to the ANA Organization and Functions Manual in allowing advisors of
different nations to share a common standard of NCO performance.

Our Response
NTM-A’s reply to Recommendation 7 was responsive. In six months, we will request a copy of
the updated Organization and Function Manual.




                                               34
Appendix A. Scope, Methodology, and
Acronyms
We conducted this assessment from February to November 2012 in accordance with the
standards published in the Quality Standards for Inspections. We planned and performed the
assessment to obtain sufficient and appropriate evidence to provide a reasonable basis for our
observations and conclusions, based on our assessment objectives. The assessment team
conducted site visits in Afghanistan from June 11–30, 2012.

The objectives of this assessment were to determine the sufficiency of Coalition leader
development programs for ANA officers and NCOs in support of the goal of enabling Afghan-
led security by the end of 2014. This included the evaluation of the level to which ANA leaders
demonstrate practical application of leadership qualities taught in the leader development
programs as well as the ANA leader selection, career development processes, and the likelihood
of the sustainment of effective leader development post-2014. To ensure a thorough basis for
our conclusions and recommendations, we visited ANA institutional training locations,
personnel, and headquarters officials in the Kabul area and two of the six Coalition Regional
Commands.

We reviewed documents such as Federal Laws and regulations, including the National Defense
Authorization Act, Chairman of the Joint Chiefs of Staff instructions, DoD directives and
instructions, and appropriate U.S. Central Command, NATO/ISAF, IJC, USFOR-A, NTM-A,
and MoD guidance.

We also visited or contacted organizations and individuals in the U.S. and Afghanistan that were
directly responsible for, or advise the commanders responsible for, developing ANA officers and
NCOs. We reviewed the programs and processes used in the development ANA officers and
NCOs and spoke with appropriate U.S./Coalition and Afghan leaders and managers including
general officers, staff officers, senior NCOs, junior NCOs, and Coalition force embedded
advisors in the ANA training enterprise and fielded units. We chose this methodology based on
our previous work in the area of ANSF development and the advice of DoDIG personnel
permanently stationed with NTM-A/CSTC-A and IJC.

The ANA Leadership Development assessment chronology was:
       January–early–June 2012               Research and fieldwork in CONUS
       June 11–30, 2012                      Fieldwork in Afghanistan
       June 27, 2012                         Out Brief to IJC and NTM-A
       July 2012–November 2012               Analysis, report writing, and reviews
       April 2013                            Draft report issued
       May 2013                              Management comments received and evaluated
       June 2013                             Final report issued




                                               35
Limitations
We limited the scope of this review to DoD-funded programs, NATO-funded programs, and
international donation programs supporting the development of the ANA leadership.

Use of Computer-Processed Data
We did not use computer-processed data to perform this assessment.

Acronyms Used in this Report
The following is a list of the acronyms used in this report.

ANA                    Afghan National Army
ANATC                  Afghan National Army Training Command
ANDU                   Afghan National Defense University
ANSF                   Afghan National Security Forces
BWT                    Basic Warrior Training
CoGS                   Chief of the General Staff
CUAT                   Commander’s Unit Assessment Tool
DCOM-A                 Deputy Commander-Army
GIRoA                  Government of the Islamic Republic of Afghanistan
GS                     General Staff
IJC                    International Security Assistance Force Joint Command
ISAF                   International Security Assistance Force
KMTC                   Kabul Military Training Center
MoD                    Afghan Ministry of Defense
NATO                   North Atlantic Treaty Organization
NCO                    Non-Commissioned Officer
NMAA                   National Military Academy of Afghanistan
NTM-A                  NATO Training Mission-Afghanistan
RMTC                   Regional Military Training Center




                                                 36
Appendix B. Summary of Prior Coverage
During the last four years, the DoD, the Government Accountability Office, the Special Inspector
General for Afghanistan Reconstruction, the Commission on Wartime Contracting, the
Congressional Research Service, and the DoD OIG have issued a number of reports discussing
the development of the Afghan MoD and the ANA.

Unrestricted DoD reports can be accessed at http://www.defense.gov/pubs. Unrestricted
Government Accountability Office reports can be accessed at http://www.gao.gov. Unrestricted
Special Inspector General for Afghanistan Reconstruction reports can be accessed at
http://www.sigar.mil. Unrestricted Commission on Wartime Contracting reports can be accessed
at http://www.wartimecontracting.gov/index.php/reports. Unrestricted Congressional Research
Service Reports can be accessed at http://www.crs.gov. Unrestricted DoD OIG reports can be
accessed at http://www.dodig.mil/audit/reports.

Some of the prior coverage we used in preparing this report has included:

Department of Defense
Report to Congress in accordance with sections 1230 of the National Defense Authorization Act
for Fiscal Year 2008 (Public Law 110-181), as amended, “Report on Progress Toward Security
and Stability in Afghanistan,” April 2012.

Report to Congress in accordance with sections 1230 of the National Defense Authorization Act
for Fiscal Year 2008 (Public Law 110-181), as amended, “Report on Progress Toward Security
and Stability in Afghanistan,” October 2011.

Report to Congress in accordance with sections 1230/1231 of the National Defense
Authorization Act for Fiscal Year 2008 (Public Law 110-181), as amended, “Report on Progress
Toward Security and Stability in Afghanistan” and “United States Plan for Sustaining the
Afghanistan National Security Forces,” April 2011.

Report to Congress in accordance with sections 1230 of the National Defense Authorization Act
for Fiscal Year 2008 (Public Law 110-181), as amended, “Report on Progress Toward Security
and Stability in Afghanistan,” November 2010.

Report to Congress in accordance with section 1230 of the National Defense Authorization Act
for Fiscal Year 2008 (Public Law 110-181), “Report on Progress Toward Security and Stability
in Afghanistan,” April 2010.

Report to Congress in accordance with section 1231 of the National Defense Authorization Act
for Fiscal Year 2008 (Public Law 110-181), “United States Plan for Sustaining the Afghanistan
National Security Forces,” April 2010.

Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1230, Public Law 110-181), “Progress Toward Security and Stability in Afghanistan,” June
2009.

                                               37
Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1230, Public Law 110-181), “Progress Toward Security and Stability in Afghanistan,” January
2009.

Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1230, Public Law 110-181), “Report on Progress toward Security and Stability in Afghanistan,”
June 2008.

Report to Congress in accordance with the 2008 National Defense Authorization Act (Section
1231, Public Law 110-181), “United States Plan for Sustaining the Afghanistan National
Security Forces,” June 2008.

Government Accountability Office
GAO-12-951T, “Long-standing Challenges May Affect Progress and Sustainment of Afghan
National Security Forces,” July 24, 2012.

GAO-11-760, “Iraq and Afghanistan: Actions Needed to Enhance the Ability of Army Brigades
to Support the Advising Mission,” August 2, 2011.

GAO-11-66, “Afghanistan Security: Afghan Army Growing, but Additional Trainers Needed;
Long-term Costs Not Determined,” Jan 27, 2011.

GAO-10-842T, “Preliminary Observations on DoD’s Progress and Challenges in Distributing
Supplies and Equipment to Afghanistan,” June 25, 2010.

GAO-10-655R, “Strategic Framework for U.S. Efforts in Afghanistan,” June 15, 2010.

GAO-08-661, “Further Congressional Action May Be Needed to Ensure Completion of a
Detailed Plan to Develop and Sustain Capable Afghan National Security Forces,” June 18, 2008.

Special Inspector General for Afghanistan Reconstruction
(SIGAR)
SIGAR Audit-10-11, “Actions Needed to Improve the Reliability of Afghan Security Force
Assessments,” June 29, 2010.

Commission on Wartime Contracting
Interim Report to Congress, “At What Cost? Contingency Contracting in Iraq and Afghanistan,”
June 10, 2009.

Second Interim Report to Congress, “At what risk? Correcting over-reliance on contractors in
contingency operations,” February 24, 2011.

Special Report to Congress, "Sustainability: hidden costs risk new waste," June 6, 2011.

Final Report to Congress, “Transforming Wartime Contracting—Controlling costs, reducing
risks,” August 2011.

                                               38
Congressional Research Service
“Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” February 6, 2012.

Department of Defense Inspector General
DoDIG Report No. SPO-2009-007, “Assessment of U.S. and Coalition Plans to Train, Equip,
and Field the Afghan National Security Forces,” September 30, 2009.

DoDIG Report No. D-2007-039, “DoD Support to NATO International Security Assistance
Force,” February 5, 2007.




                                             39
THIS PAGE INTENTIONALLY LEFT BLANK




                40
Appendix C. Organizations Contacted and
Visited
We visited, contacted, or conducted interviews with officials (or former officials) from the
following NATO, U.S., and Afghan organizations:

United States
Department of Defense
Faculty and Staff at the U.S. Military Academy, West Point

Afghanistan
International Security Assistance Force - Afghanistan
   •   Deputy Commander-Army, NTM-A and selected staff
   •   Deputy Commander-Support, NTM-A
   •   Selected staff from IJC
   •   Deputy Commander, Regional Command North and selected staff
   •   Commander, Training Advisor Group for the RMTC in Regional Command North and
       selected staff

Government of the Islamic Republic of Afghanistan
Ministry of Defense
   •   Assistant Minister of Defense for Personnel and Education
   •   Assistant Minister of Defense for Acquisition, Technology, and Logistics
   •   Assistant Minister of Defense for Strategy and Policy
   •   ANA Chief of the General Staff
   •   ANA Command Sergeant Major
   •   ANA Chief of Administration (GS/G1)
   •   ANA Chief of Operations (GS/G3)
   •   ANA Chief of Logistics (GS/G4)
   •   ANA Chief of Training (GS/G7)
   •   Commander, Ground Forces Command, and selected staff
   •   Commander, KMTC, subordinate commanders, and selected staff
   •   Commander, ANATC, subordinate commanders, and selected staff
   •   Commander, National Military Academy of Afghanistan, and selected staff
   •   Commander, Command Staff College, and subordinate commanders
   •   Commander of the RMTC in Regional Command North
   •   ANA Commanders/Leaders in Regional Commands North and East




                                                41
THIS PAGE INTENTIONALLY LEFT BLANK




                42
Appendix D. Afghan/U.S. Policy, United States
Code, Federal Regulations, and DoD Policies
1. ANA 6-22, “Army Leadership,” August 1, 2007. This manual is the keystone
leadership manual for the ANA and establishes leadership doctrine, the fundamental principles by
which Army leaders act to accomplish their mission and care for their people. This manual applies to
officers, sergeants, and enlisted Soldiers of all Army components, and to Army civilians. From
Soldiers in basic training to newly commissioned officers, new leaders learn how to lead with this
manual as a basis.

2. BLUEPRINT – ANA Personnel System, NTM-A, dated 13 NOV 2012. This
blue print is an illustration of the “System of Systems” design by which the ANA will Attract,
Retain, and Professionalize its force.

3. Combined Training Advisory Group – Army, Development Plan for the
Afghanistan National Army Training & Education Command 2011 – 2014,
vers 2.1, 1 April 2011. This Development Plans serves as the primary development
document for the ANATC. It sets out the path by which ANATC’s Coalition Force advisors in
the Combined Training Advisory Group-Army (CTAG-A) will transition full responsibility to
ANATC. It is reviewed quarterly in order to respond to changing conditions, adjust guidance
and maintain relevance.

4. DoD Instruction 3000.05, Stability Operations, September 16, 2009. This
instruction updates policy and assigns responsibilities for the identification and development of
DoD capabilities to support stability operations, to include identifying analytical gaps and
ensuring that DoD analytical tools, including models and simulations, address stability
operations activities and capabilities.

5. Handbook for Military Support to Rule of Law and Security Sector
Reform, Unified Action Handbook Series Book Five, June 13, 2011. This
handbook provides fundamental guidance, planning considerations, techniques, procedures, and
other information for rule of law (ROL) issues that the joint force commander (JFC) and his staff
may encounter in joint operation/campaign planning and in executing military operations such as
theater security cooperation, foreign humanitarian assistance, stability operations, and peace
operations. It explains the interrelationship between ROL, governance, and security; and
outlines the role of security sector reform (SSR) in building partner capacity to strengthen
stability and ROL. It is designed primarily for commanders and planners and is a practical
guide that provides templates, tools, best practices, and lessons learned for planning and
execution at the theater-of-operations level and below. It provides a template to analyze
foundations essential to successful stability operations.

6. Joint Center for International Security Force Assistance (JCISFA)
Document, “The Afghan National Security Forces - Advisor Guide,” June
2012. This document is a reference for currently serving or deploying U.S. and Coalition
partners. As a reference, it describes and illustrates the historical context, forces, and force
structures of the ANSF across DOTMLPF-P domains. Likewise, this guide provides perspective

                                                43
and relationships of the Security Force Assistance (SFA) structure that exists within the ISAF
and its subordinate organizations like NATO Training Mission Afghanistan (NTM-A) and the
IJC.

7. Measuring Progress in Conflict Environments (MPICE), A Metrics
Framework, United States Institute of Peace Press, Washington, D.C., June
4, 2010. MPICE was designed by and for policymakers, analysts, planners, and program and
project implementers in conflict areas around the world. It enables policymakers to establish a
baseline before intervention and track progress toward stability and, ultimately, self-sustaining
peace. Its intention is to contribute to establishing realistic goals, focusing government efforts
strategically, integrating interagency activities, and enhancing the prospects for attaining an
enduring peace. This metrics framework supports strategic and operational planning cycles and
provides best practices for dealing with qualitative measures.

8. MoD Directive 5001, “Ministry of Defense Organization and Functions
Manual,” March 29, 2011. The manual prescribes the command relationships from the
President of Afghanistan, through the MoD and GS to all elements of the ANA. It also
prescribes the organization and functions of all approved organizational structures (Tashkils) of
the offices of the MoD and GS of the ANA. This manual, along with existing Ministerial
Decrees, policies, standard operating procedures and ANA regulations serves as the basis for
assigning and coordinating staff actions.




                                                44
Appendix E. Organization of the ANA Training
and Education Enterprise
Introduction
This Appendix is divided into two sections. The first section defines and distinguishes the
organizational structures of the ANATC and the ANDU. The second provides the geographical
locations of the various ANA schools.

Organizational Structure of ANATC and ANDU
As shown in Figure E-1, ANA has primarily organized its Training and Education enterprise into
two separate commands. These commands are ANATC and ANDU.

       ANATC- Develops training doctrine, establishes training standards, and trains soldiers
       in order to build and sustain the ANA. ANATC consists of the following entities:

          •   KMTC
          •   five RMTCs,
          •   Consolidated Fielding Center, and
          •   Branch Schools Directorate:
              o Infantry Branch School               o Human Resources Management School
              o Armor Branch School                  o Finance Management School
              o School of Artillery                  o Religious and Cultural Affairs (RCA)
              o Engineer School                        School
              o Signals School                       o Legal School
              o Military Police School               o School of Public Affairs
              o Logistics School


       ANDU- Provides professional military education to the ANA and develops future
       military and civilian leaders through its academic and military programs. The university
       consists of these schools:
              o National Military Academy of         o   Command Staff College
                Afghanistan (modeled after           o   Sergeants Major Academy
                the United States Military           o   Counter Insurgency Training Center
                Academy at West Point)
                                                     o   Kabul Military High School
              o Afghan National Army
                Officer’s Academy (modeled           o   Afghan Foreign Language Inst.
                after Sandhurst in the United
                Kingdom)




                                              45
                  Figure E-1. ANA Training and Education Organizational Chart




 Source. DoD IG – SPO

 ANATC is the ANA’s training command and ANDU is the ANA’s educational focused organization.




Geographic Locations of ANATC and ANDU Schools
As shown in Figure E-2, the formal schools of the ANA are located throughout Afghanistan.
The majority on these schools are located in the vicinity of Kabul. The primary facilities in the
Kabul area include:

   •   ANDU located in the Qargha region to the west,
   •   ANATC headquarters located in the Darulaman region to the south, and
   •   KMTC (along with ANA facilities at Pol-e-Charki) located to the eastern section of the
       city.

However, in addition to the six RMTC, each geographically located within a Regional
Command, the Engineer School is permanently located at Mazer-e-Sharif in Regional
Command-North. Furthermore, the Signals School and the Military Police school are also slated
to be permanently located at Mazer-e-Sharif.




                                                  46
             Figure E-2. ANA Training and Education Enterprise Geographic Locations




Source. DoD IG – SPO

This map depicts the slated permanent locations of the ANA’s formal schools and training venues.

NOTE: There are some ADCON relationships between the ANDU, KMTC, or RMTC-N with several of
ANATC’s branch schools. This is because, in the vicinity of Kabul, three branch schools are located on the
ANDU grounds in Qargha, and five are located at KMTC (or the nearby Pol-e-Charki facility). Moreover,
there are three other branch schools that are slated to be permanently located away from the vicinity of
Kabul. These are the Engineer, Signals, and MP schools, which are located with and are ADCON to
RMTC-N (209th Corps) in Masar-e-Sharif. Additionally, both RMTC-W and RMTC-E each have two
separate facility locations within their respective RCs.




                                                   47
THIS PAGE INTENTIONALLY LEFT BLANK




                48
Appendix F. Management Comments
NTM-A Comments




                    49
50
51
52
53
54
55
56
57
IJC Comments




               58
Appendix G. Report Distribution
Department of State
U.S. Ambassador to Afghanistan
Office of the Secretary of Defense
Deputy Secretary of Defense
Chairman of the Joint Chiefs of Staff
    Director, Joint Staff
Department of the Army
Auditor General, Department of the Army
Department of the Navy
Naval Inspector General
Department of the Air Force
Auditor General of the Air Force
Combatant Commands
Commander, U.S. Central Command
Other Defense Organizations
Commander, International Security Assistance Force/U.S. Forces–Afghanistan*
    Commander, International Security Assistance Force Joint Command*
    Commander, NATO Training Mission-Afghanistan/Combined Security Transition
          Command–Afghanistan*
    Commander, Coalition Forces Special Operations Component Command-Afghanistan
Director, Defense Intelligence Agency
Director, Joint Center for International Security Force Assistance
Other Non-Defense Federal Organizations
Special Inspector General for Afghanistan Reconstruction
Congressional Committees and Subcommittees, Chairman
and Ranking Minority Member
Senate Committee on Appropriations
    Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
    House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
∗
    Recipient of draft report

                                             59
THIS PAGE INTENTIONALLY LEFT BLANK




                60
Special Plans & Operations
 Provide assessment oversight that addresses priority national security
 objectives to facilitate informed, timely decision-making by senior
 leaders of the DOD and the U.S. Congress.



 General Information
   Forward questions or comments concerning this assessment and report and other
   activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


                    Deputy Inspector General for Special Plans & Operations
                         Department of Defense Inspector General
                                4800 Mark Center Drive
                               Alexandria, VA 22350-1500




                           Visit us at www.dodig.mil


   DEPARTMENT OF DEFENSE



   hot line                              make a difference
                                             800.424.9098
                                                             Report                        www.dodig.mil/hotline
                                                             Fraud, Waste, Mismanagement, Abuse of Authority
                                                             Suspected Threats to Homeland Security
   Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
